                                                                                   August 24, 2000



MEMORANDUM FOR DAA/AFR, Keith Brown

FROM:            IG/A/ITSA, Theodore P. Alves

SUBJECT:         Audit of USAID’s Activities to Prevent, Mitigate, and Resolve
                 Conflicts in Sub-Saharan Africa (Audit Report No. A-000-00-004-P)


The United States and other international donors have increasingly recognized that, in
many developing countries, violent conflict is a central factor that hinders economic
progress and sustainable human development. In Africa specifically, extensive conflict
and instability adversely affect U.S. interests by (1) draining resources that could help
integrate Africa into the world economy; (2) encouraging weapons proliferation and drug
trafficking; (3) providing a breeding ground for the spread of poverty, disease, terrorism,
and corruption; and (4) threatening to destabilize emerging democracies and countries
undertaking economic reform efforts. To mitigate these adverse effects, the U.S. Agency
for International Development (USAID) funds activities to prevent, mitigate, or resolve
conflicts in Africa.

In an August 24, 1999 letter to the USAID Administrator, the Chairman of the Senate
Foreign Relations Committee requested that the USAID Office of Inspector General
(OIG) review the cost effectiveness of U.S. supported conflict resolution activities in
Africa. Based on discussions with the Committee’s professional staff, this report
describes USAID activities to prevent, mitigate, or resolve, conflict in sub-Saharan
Africa.1 This report does not contain recommendations. We considered management
comments on a draft of this report and included the comments in Appendix II.


BACKGROUND

Africa is the poorest continent on Earth with the world’s highest population growth rates
and rates of urbanization. By most statistical measures, Africa has a smaller quantity of
the goods and services that people need to satisfy their basic human needs.




1
 Six African countries—Morocco, Western Sahara, Algeria, Tunisia, Libya, and Egypt are African
countries that are not included in sub-Saharan Africa.
                                                       1
Table 1 compares Africa’s socio-economic status with that of Latin America and Asia.



                                          TABLE 1

                                 Africa’s Needs Are Great
Socio-Economic Indicators                      Africa      Latin America              Asia
GDP per capita (1997)                             $560         $4,230                 $730
Adult Illiteracy Percentages (1995)                                           E.Asia     S.Asia
 Male                                              34            12              9       38
 Female                                            53            15             24       64
Average Population Growth Rate (1980-
                                                  2.8            1.9            1.5      2.1
1996)
Infant Mortality Rate (per 1,000 Live
                                                   96            36                    57
Births)
Life Expectancy (in years)                         48            69                    65
Total Fertility Rate                              6.0            3.0                  2.8
HIV/AIDS sero-prevalence ( in millions)           22.5          1.73                  7.27
Source: USAID Congressional Presentation, Fiscal Year 2000: Africa Bureau Regional Overview

Education, housing, health care, employment, and oftentimes food are all in short supply.
Studies have found that these factors are major contributors to conflict. In an
environment of pervasive poverty and unemployment, competition between regional,
ethnic, or religious groups over scarce resources can spawn violent conflict. Scarce
resources include natural resources as well as political and economic entitlement to
opportunities in employment, education, and political office.

USAID’s Africa Bureau defines conflict as a struggle over values, status, power, and
scarce resources such as territory, food, and energy, among two or more parties who
perceive incompatible interests or express hostile attitudes. Under this definition,
conflicts do not always involve violence. In fact, one study points out that conflicts can
occur for 10 to 15 years before the outbreak of violence. As a result, prevention efforts
often focus most effectively on conflicts that have not yet turned violent.

Because conflicts can adversely affect U.S. national interests and set back development
programs, U.S. foreign policy activities include taking actions to prevent, mitigate
(sometimes called manage), and resolve conflicts when they threaten U.S. national
interests. The U.S. government employs several agencies to address conflict prevention,
mitigation, and resolution. The three primary agencies involved in conflict activities in
Africa are the Department of State, the Department of Defense, and USAID. These
agencies, each within its applicable authorities, can employ a range of diplomatic and

                                              2
developmental tools to advance this objective, including official diplomacy, sanctions
and embargoes, military coordination, and international assistance investments.

Long-standing general statutory authorities contained in the Foreign Assistance Act
(FAA) authorize USAID to provide assistance for conflict prevention, mitigation, and
resolution, including the reintegration of ex-combatants into civilian society. 2 Also, in
1994, Congress passed the African Conflict Resolution Act (ACRA), Public Law 103-
381. ACRA emphasized the importance of developing an African capacity for conflict
resolution and demobilization, and authorized USAID to provide foreign assistance to
sub-Saharan Africa to, among other things, strengthen the conflict resolution capacity of
the Organization of African Unity (OAU), multilateral sub-regional organizations in
Africa, and African non-governmental organizations (NGOs). Within USAID, the
Bureaus for Africa, Humanitarian Response, and Global Programs provide support for
conflict-related activities in Africa. Appendix III further describes ACRA, the role other
U.S. agencies play in conflict activities, and the role of various USAID organizations.


AUDIT OBJECTIVE

Based on a congressional request, our two-part objective was to provide information
about:

u   What activities have USAID funded to prevent, mitigate, and resolve conflicts in
    sub-Saharan Africa and how do those activities support U.S. foreign policy
    objectives and national interests?

To answer the objective, we designed this audit to provide an overview of USAID’s
activities where the primary purpose of the activity was to prevent, mitigate, or resolve
conflicts in sub-Saharan Africa. We also reviewed laws, regulations, policy directives,
and other documents to understand how USAID’s activities support U.S. foreign policy
objectives and national interests. Because we relied heavily on information gathered by
USAID management and did not perform substantive tests of the reliability of the data,
we cannot attest to the reliability of the financial information being reported. A full
description of the scope and methodology is contained in Appendix I.


SUMMARY OF RESULTS
Conflicts can harm U.S. national interests by threatening the safety of American citizens,
reducing opportunities for trade and investment, and promoting the spread of
international crime and narcotics traffic. After the passage of ACRA in 1994, USAID
undertook a number of activities designed to prevent, mitigate, and resolve conflicts in
sub-Saharan Africa. These activities are designed to support U.S. national interests by

2
 A sec. 531(a) authorizes the use of Economic Support Fund (ESF) funds “to promote economic and
political stability.” Many conflict prevention, mitigation, and resolution activities as well as demobilization
activities fall within the authorities of the Development Fund for Africa, the Development Assistance
accounts, and the Horn of Africa Act.
                                                       3
helping Africans to become capable of resolving conflicts, thereby reducing instability
and fostering economic development. USAID activities include providing support to
improve the conflict resolution capabilities of the OAU, Multilateral sub-regional
organizations, and NGOs; support for African demobilization and reintegration efforts;
training for Africans in conflict resolution; human rights protection and support for rule
of law, as well as other activities that indirectly address conflict.

The cost effectiveness of USAID’s conflict-related investments is difficult to measure for
several reasons. First, USAID does not have readily available information about conflict-
related activities because USAID’s financial management system is not designed to track
these activities automatically. Additionally, USAID has encountered difficulties in
publishing recent annual progress reports in a timely manner. Also, because many
conflict-related activities are imbedded in other international assistance activities, it is
difficult to identify all investments in conflict-related activities. Furthermore, because it
is impossible to know for sure whether a USAID-funded intervention actually prevented
specific conflicts, there is no reliable way to measure the cost effectiveness of many
prevention activities.


USAID’S CONFLICT ACTIVITIES SUPPORT
U.S. FOREIGN POLICY OBJECTIVES

Because Africa is a low regional priority in terms of U.S strategic assessments of our
national interest, U.S. policy regarding dealing with conflicts in Africa focuses on
responding to conflicts through direct program assistance, as well as through
intermediaries, including African multilateral sub-regional organizations, such as the
OAU. U.S. policy also focuses on helping African institutions to build the capacity to
resolve conflicts themselves.

U.S. national interests and international affairs goals are described in the multi-agency
U.S. Strategic Plan for International Affairs (SPIA), which is prepared by the Department
of State with input from other foreign affairs agencies. The strategic plan describes the
fundamental purpose of U.S. international affairs activities as creating a more secure,
prosperous, and democratic world for the benefit of the American people. Expected
benefits include improved security at home, better jobs and higher standards of living, a
healthier environment, and safer travel and conduct of business abroad. The plan
identifies seven national interests, supported by 16 international affairs goals to
accomplish this fundamental purpose. These are summarized as:

•      Protect vital interests, secure peace, deter aggression, prevent and defuse crises,
       halt the proliferation of weapons of mass destruction, and advance arms control
       and disarmament.

•      Expand exports, open markets, maintain global growth and stability, and promote
       economic development.



                                              4
•      Protect American citizens abroad, manage the entry of visitors and immigrants,
       and safeguard the borders of the United States.

•      Combat international terrorism, crime, and narcotics trafficking.

•      Support the establishment and consolidation of democracies, and uphold human
       rights.

•      Provide humanitarian assistance to victims of crisis and disaster.

•      Improve the global environment, achieve a sustainable world population, and
       protect human health.

Conflicts can adversely affect most of these national interests, depending on factors such
as the location and intensity of the conflict. For example, even in areas such as Africa
that are not strategically important to national security, conflicts can adversely affect the
safety of American citizens, reduce opportunities for trade and investment, and promote
international crime and narcotics traffic. Conflicts also threaten international assistance
investments. Thus, in addition to preventing loss of life and avoiding costly humanitarian
assistance expenditures, USAID is concerned in safeguarding its long-term investments
in those African countries where it provides development assistance.

U.S. goals in Africa focus on accelerating Africa’s full integration into the global
economy and combating transnational security threats. Integrating Africa into the world
economy would benefit the U.S. by providing increased opportunities for trade and
investment. For example, Africa currently accounts for 13 percent of U.S. crude oil
imports and the proportion is expected to grow to 20 percent within 10 years. Instability
in Africa also harms U.S. national interests by providing a breeding ground for
transnational threats such as terrorism, weapons proliferation, narcotics flows, and
international crime that can adversely affect U.S. citizens.

Sub-Saharan Africa suffers from extensive conflicts, and the following section describes
the extent of conflict and instability that currently exists in sub Saharan Africa.

       Africa Suffers From Extensive Conflicts

Although many countries in sub-Saharan Africa have made notable progress, such as in
Mozambique, Botswana, Ghana, and Uganda, and political progress, such as in South
Africa and Benin, violent conflict or the threat of it continues to limit economic and
political progress in Africa. In some countries, such as in Somalia and Sudan, progress
has been eroded due to conflict; while in other countries, such as Angola, a post-
reconstruction phase has been cut short due to recurring conflict.

Using a Department of Defense rating system, Africa Bureau officials compile and track
information on African countries and categorize each country based on its likelihood of
experiencing conflict or civil violence. The rankings are based on information from the

                                             5
          Foreign Broadcast Information Service and other major international news sources.3 This
          system classifies the likelihood of conflict as high, medium, or low, although high risk is
          actually defined as currently experiencing conflict. The following map of Africa shows
          the classification the Bureau published in March 2000.




                           MOROCCO                      TUNISIA


                                     ALGERIA
         WESTERN SAHARA                                        LIBYA              EGYPT


                MAURITANIA
                                    MALI
                                                  NIGER              CHAD
                SENEGAL                                                        SUDAN           ERITREA
  THE GAMBIA
                                   BURKINA FASO                                                      DJIBOUTI
GUINEA-BISSAU        GUINEA           G          NIGERIA
                                           T
                                      H
       SIERRA LEONE           COTE     A
                                           O
                                           G
                                               BENIN            CENTRAL AFRICAN
                                                                                               ETHIOPIA SOMALIA
                              D’IVOIRE N
                 LIBERIA                   O
                                                       CAMEROON    REPUBLIC
                                                              REP.
                                                              OF      DEM. REP    UGANDA
                                                        GABON THE
                                                                      OF THE           KENYA
                            EQUATORIAL GUINEA                 CON
                                                              GO      CONGO    RWANDA
                                                                                   BURUNDI
                                                                                       TANZANIA

                                                                                                                SEYCHELLES
                                                                                                  COMOROS
                                                               ANGOLA                    MALAWI
                Hig h -Co nflict                                            ZAMBIA
                                                                                             MOZAMBIQUE
                                                                                  ZIMBAB -                        MAURITIUS
                                                              NAMIBIA               WE
                Me dium - Co nflict Po tential
                                                                      BOTSWANA                     MADAGASCAR

                Lo w - Limite d Co nflict Po tential
                                                                               LESOTHO
                                                                      SOUTH
                                                                                             SWAZILAND
                                                                      AFRICA




         Information provided by Africa Bureau, Office of Conflict, Mitigation and Recovery as of March 2000.




          3
           The assessments do not represent the official policy or categorizations of the Department of Defense; nor
          do they describe the intensity of violence.
                                                               6
The map indicates that 14 of the 47 African countries4 , or about 30 percent of the total,
were involved in armed internal or external conflict in March 2000. Those countries
have a history of mass killing and genocide as in Burundi; insurgent group uprising as in
Angola, Chad, and Sudan; and civil war as in the Democratic Republic of the Congo and
Namibia.

In addition, 22 countries, or about 47 percent of the total, face a medium risk of conflict
or civil violence. These countries are either presently threatened by armed conflict,
transitioning out of conflict, or have a history of ongoing conflict without having
addressed the root causes. For example, several of these countries, including Benin, Cote
D’Ivoire, The Central African Republic, the Gambia, and Niger have a history of military
coups. In Cote D’Ivoire, a military coup occurred in December 1999, and in February
2000 new coup plotters were arrested.

Only 11 countries, or about 23 percent of the total, were classified as having a low or
limited potential for conflict or civil violence. Many of those countries still face some
threat of violent conflict from regional instabilities that could spill across their borders.

Appendix IV contains the classification for the 47 African countries based on their
susceptibility to violent conflict or civil violence. The appendix also provides a
description of the type of conflict that has occurred or that is likely to be encountered by
each country as well as the reasons for the classification.


CONFLICT ACTIVITIES IN AFRICA

As called for by ACRA, USAID has provided funds for activities designed to enhance the
capabilities of the OAU, multilateral sub-regional organizations, and NGOs to prevent,
resolve, and mitigate conflicts, to support the reintegration of ex-combatants, and to
provide education and training to civilians and ex-combatants.

We reviewed the ACRA annual progress reports and summarized the USAID activities
reported.5 We supplemented the information contained in the annual progress reports by
collecting additional data from USAID and the Department of State officials about those
activities that had, as their primary purpose or objective, preventing, mitigating, or
resolving conflict in Africa.6 We gathered this information in part because the annual
progress reports did not always provide financial information about the projects, and in
part because the annual reports did not include all activities related to conflict. We did
not verify the accuracy of the information presented in the annual progress reports or the
supplemental data provided by USAID or Department of State.

4
  Forty-seven African countries are included in Sub-Saharan Africa.
5
  Although USAID has not submitted fiscal years 1998 and 1999 progress reports to Congress as required
by ACRA, we reviewed drafts of those reports to prepare this summary. These progress reports provide
information for all activities by U.S. agencies covered by ACRA, but do not contain detailed budgetary
information.
6
  For the purpose of this survey, Africa Bureau officials identified conflict activities that explicitly state in
their purpose or objective that they were intended to prevent, mitigate, or resolve conflict.
                                                       7
        Funding for Conflict-Related Activities

According to the data USAID provided, the Africa Bureau spends the largest amount of
any USAID organization on conflict-related activities. The Africa Bureau spent
approximately $107 million from FY 1995 to FY 1999, or about 2 percent of its $5.7
billion budget for those years, on activities that had, as a primary purpose, preventing,
mitigating, or resolving conflicts in sub-Saharan Africa. In FY 1999, the Bureau for
Humanitarian Response, Office of Transition Initiatives spent $325,000 of its $40 million
budget7 , or less than 1 percent, on activities that had as a primary purpose preventing
mitigating, or resolving conflicts in sub-Saharan Africa. Also in FY '99, of the
approximately $58 million obligated through the Bureau for Global Programs' Center for
Democracy and Governance, $3.5 million or about 6 percent of the bureau's $382 million
budget was used for activities that had as a primary purpose preventing, mitigating or
resolving conflicts in sub-Saharan Africa.8

The following Chart and Table 2 shows which African countries were the primary
recipients of the funds.
                                       Chart

                         Africa Bureau Expenditures
                                  Fy '95 - '99


                                                            Angola
                                                              16%
                       *Other
                        9%


                                                                                                Angola

              Uganda
                                                                     Congo                      Congo
                                                                        11%
                  6%
                                                                                                Eritrea
                                                                                                Ethiopia
                                                                        Eritrea                 Ghana
           Rwanda                                                         2%

            17%                                                          Ethiopia
                                                                                                Liberia
                                                                              12%               Mali
                                                                                                Niger
                                                                Ghana
                                                                 1%                             Rwanda
                                                                                                Uganda
                                                 Mali                Liberia
                          Niger                  9%                     3%                      *Other
                           14%




7
  In addition, the office also received a $10-million supplemental to Kosovo, prior-year carryover, and a
number of transfers from other bureaus.
8
  Because the Bureau for Humanitarian Response, Office of Transition Initiatives and the Global Bureau’s
Center for Democracy and Governance spent significantly smaller amounts, they provided data for 1999
only.


                                                        8
                                               Table 2
                                     Africa Bureau Expenditures
                                             FY '95 - '99


                                                        Expenditure
                  Country Or Organization                                          Ratio
                                                        (in Millions )

                  Angola                                  $ 16.8                    16%
                  Congo                                   $ 12.0                    11%
                  Eritrea                                 $    2.4                   2%
                  Ethiopia                                $ 13.0                    12%
                  Ghana                                   $    0.6                   1%
                  Liberia                                 $    3.1                   3%
                  Mali                                    $    9.4                   9%
                  Niger                                   $ 14.6                    14%
                  Rwanda                                  $ 18.9                    17%
                  Uganda                                  $    6.9                   6%
                  *Other                                  $    9.6                   9%
                  Total                                   $ 107.3                 100%



*Other: The total shown includes approximately $9.6 million that the bureau contributed to various
organizations and countries. Specifically, about $7.8 million (7 percent) was contributed to the African
Center for Constructive Resolution of Dispute (ACCORD) and about $1.8 million (2 percent) was
contributed to the Regional Economic Development Services for East and Southern Africa (REDSO/ESA),
and the countries of Burundi, Kenya, Nigeria, Somalia, Sudan, and Tanzania. Of this total, the AFRICA
Bureau contributed about $300 thousand during this time to the OAU.

        Types of Conflict-Related Activities

The following sections describe the types of conflict-related activities USAID funded.
The activities are reported by the categories identified in the ACRA. In some cases, such
as in providing support to the OAU, USAID provided funding but played a secondary
role to other agencies such as the Department of State. As a result, the description of
USAID activities does not capture the full extent of U.S. government activities.

In addition, the annual progress reports capture information about conflict-related
activities that fall outside the categories described in the Act. In many cases, these are
USAID development activities that indirectly contribute to conflict prevention,
mitigation, and resolution. For example, because poverty encourages competition over
scarce resources, it may be seen as a root cause of conflict. USAID activities that address
poverty, therefore, might be described as an indirect activity related to conflict.
Similarly, other root causes of conflict include access to land, land tenure, and disputes



                                                    9
over natural resources. Therefore, USAID’s economic, agriculture, and environmental
programs indirectly address these conflict issues, although conflict may not be explicitly
stated as an objective. In addition, some activities may address more than one USAID
objective. Objectives could include support for human rights, retraining of ex-
combatants, de-mining, or humanitarian relief.

        Improving the Conflict Resolution Capabilities
        of the Organization for African Unity (OAU)

Based on data provided by the Africa Bureau, USAID contributed approximately $2.4
million in Economic Support Funds (ESF) from 1992 to 1995 to the OAU—the largest
multilateral regional organization within Africa. Most of the funds were transferred or
allocated directly to the Department of State and used to enhance the OAU’s mediation
and peace-building capabilities.

The OAU was established in May 1963, and is headquartered at Addis Ababa, Ethiopia.
The OAU is comprised of 53 African states, including the island states of Comoros,
Mauritius, and Seychelles, but excluding Morocco. The purpose of the OAU is to:

Ÿ       promote the unity and solidarity of the African states and defend the sovereignty
        of members;

Ÿ       eradicate all forms of colonialism and promote international cooperation, having
        due regard for the Charter of the United Nations and the Universal Declaration of
        Human Rights; and

Ÿ       coordinate and harmonize member states economic, diplomatic, educational,
        health, welfare, scientific, and defense policies.

Based on records from USAID and the Department of State, Bureau of African Affairs,
the U.S. government contributed approximately $12 million to enhance the OAU conflict
mediation and resolution capabilities between 1992 and 1997. USAID contributed $2.4
million of ESF funds or about 20 percent of the total. Most of the USAID funds were
transferred to the Department of State using a 632(a) transfer mechanism.9 Specifically,
supplemental data from USAID identified the following expenditures:

In 1992, USAID’s Africa Bureau allocated approximately $500,000 to the Department of
State to support OAU cease-fire monitoring and mediation activities for Rwanda.10
USAID also provided $1.5 million to the Department of State in 1994. The Department
of State contributed these funds to the OAU to provide for infrastructure and equipment
9
  Under Section 632(a) of the Foreign Assistance Act, the recipient agency—the Department of State—is
accountable for ensuring that the funds are obligated and expended in accordance with applicable law.
10
   Normally ESF funds can not be used to support peacekeeping activities. However, Section 451 of the
Foreign Assistance Act (FAA) authorizes the Secretary of State to use some funds for other FAA-related
purposes in the event of an unanticipated contingency. Section 451 authority was exercised to permit the
use of $500,000 of Fiscal Year 1992 Economic Support Funds for peacekeeping purposes, to support and
equip cease-fire monitoring for Rwanda.

                                                   10
support for a non-military component of a conflict resolution mechanism. In 1995,
USAID transferred approximately $300,000 to Department of State to support a Central
Africa Conference and to support Sudanese peace talks.11 The Africa Bureau also
provided $75,000 to fund an OAU conference on Post conflict demobilization in Africa.

Overall, results cited by USAID and the Department of State include a more active role
for the OAU in preventing, mitigating, and resolving conflicts throughout Africa.
Establishment of the conflict resolution center and the quick-reaction military observer
force has helped the OAU to become more active in resolving conflicts. The OAU has
also established collaborative relationships with the UN and other multilateral sub-
regional organizations. For example, the OAU has deployed observers to Rwanda,
Burundi, and the Comoros. According to Department of State documents, the OAU
brokered an agreement between factions of the Comoros to allow the country's president
to return and assume the ceremonial duties of his position, pending upcoming elections.
The observer force also served in the Comoros to act as a force for peace. The OAU also
provided a 10-person civilian monitoring group that was deployed to the Western Sahara
to act as observers in preparation for a referendum. It also has contributed to negotiations
attempting to resolve several conflicts including the Eritrea/Ethiopia border conflict and
the Congo civil war.

        Improving the Conflict Resolution Capabilities
        of Multilateral Sub-Regional Organizations

ACRA also authorized assistance to strengthen the conflict resolution capabilities of sub-
regional multilateral organizations. As part of the U.S. strategy to strengthen African
institutional capabilities to resolve conflicts, the U.S. contributes to multilateral sub-
regional organizations because those organizations’ conflict resolution efforts can
complement those of the U.S., the UN, and OAU. USAID provided approximately $1.1
million to three of the four African sub-regional organizations to enhance their capability
to address conflicts. The role of each organization and the USAID support provided to
each is described below:

•    Common Market for Eastern and Southern Africa (COMESA) 12 is a regional
     group that represents 21 countries in east/central and southern Africa. COMESA was
     established in 1994 to promote greater social and economic co-operation, with the
     ultimate objective of creating an economic community. One focus of COMESA’s
     effort is to promote peace and security in the region. USAID provided about
     $325,000 to COMESA for a Conflict Quick Response Fund and a Conflict Pilot
     Activity Fund, both limited scope grant agreements. According to Africa Bureau
     officials, both projects are umbrella activities designed to provide sub-grants through
     USAID to U.S. and African NGOs to conduct conflict response and conflict pilot
11
   According to a Memorandum of Understanding, USAID funds were provided to the OAU to be
administered through the Intergovernmental Authority on Development (IGAD) in support of the peace
talks to end a civil war.
12
   COMESA countries include Angola, Burundi, Comoros, Democratic Republic of Congo, Djibouti,
Egypt, Eritrea, Ethiopia, Kenya, Madagascar, Malawi, Mauritius, Namibia, Rwanda, Seychelles, Sudan,
Swaziland, Tanzania, Uganda, Zambia, and Zimbabwe.

                                                  11
     activities. The goal is to conduct innovative activities in response to conflict or
     potential conflict situations that could lead to applying lessons learned and best
     practices in other circumstances and in other countries.

•    Economic Community of West African States (ECOWAS)13 is a regional group of
     sixteen West African countries. Founded in 1975, its mission is to promote economic
     integration in all fields of economic activity, including industry, transportation,
     telecommunications, energy, agriculture, natural resources, commerce, financial
     questions, and social and cultural matters. ECOWAS is heavily engaged in conflict
     resolution and negotiations to resolve conflicts in the region. USAID provided about
     $653,000 to help ECOWAS improve its ability to address conflict situations. Of the
     total, USAID provided $570,000 to the Government of Ghana, as the ECOWAS
     chair, to host peace negotiations between Liberian faction leaders. USAID also
     provided $79,000 to fund a technical assistance project to support ECOWAS efforts
     to draft a protocol on a regional conflict mechanism for peacekeeping, along with
     prevention, mitigation, and resolution of conflict.

•    The Intergovernmental Authority on Development (IGAD)14 is a sub-regional
     group that represents seven countries in the Northeast, or Greater Horn of Africa.
     IGAD superseded the Intergovernmental Authority on Drought and Development
     (IGADD) which was created in 1986. Between 1994 and 1999, USAID provided
     about $150,000 to help establish a Nairobi-based Secretariat to oversee the IGAD
     sponsored Sudanese peace talks. As of February 2000, IGAD reported that both sides
     have expressed a willingness to continue the talks.

     Also in 1994, U.S. government agencies launched the Greater Horn of Africa
     Initiative (GHAI), which has as one of its primary goals, to strengthen African
     capacity to prevent, mitigate, and resolve conflict. The concept of linking relief to
     development is one of the key principles of the GHAI and is also an important
     component of USAID’s longer-term strategy to reduce human and financial costs of
     conflict in Africa.

•    The Southern Africa Development Community (SADC)15 is a sub-regional
     organization of 14 countries located in Southern Africa. Formed in 1980, its mission
     includes fostering economic growth and regional integration, alleviating poverty, and
     promoting regional security. The Department of State has encouraged SADC to
     become more involved in conflict resolution activities in the region, and the SADC
     has initiated, and been involved in efforts to resolve the conflict in the Democratic
     Republic of Congo.

13
   ECOWAS member states include Benin, Burkina Faso, Cape Verde, Cote d’Ivoire, Gambia, Ghana,
Guinea, Guinea Bissau, Liberia, Mali, Mauritania, Niger, Nigeria, Senegal, Sierra Leone, and Togo.
14
   IGAD includes Djibouti, Eritrea, Ethiopia, Kenya, Somalia, Sudan, and Uganda and is headquartered in
Djibouti.
15
   SADC member states include Angola, Botswana, Congo, Lesotho, Malawi, Mauritius, Mozambique,
Namibia, Seychelles, South Africa, Swaziland, Tanzania, Zambia, and Zimbabwe.


                                                   12
       Improving the Conflict Resolution Capabilities of
       Non-Governmental Organizations (NGOs)

USAID, as the key U.S. agency engaged in capacity-building activities, has provided
funding to develop partnerships between local governments, NGOs, and other civil
society groups. USAID funding has helped to provide training in conflict prevention to
more than 125 African NGOs. These organizations, which are often engaged in
mediation and reconciliation efforts, undertake many activities to reduce political, social,
and economic tensions that lead to conflict. Their efforts extend beyond dialogue and
negotiation and also involve research, planning, training, and other support services. The
following examples illustrate the types of activities USAID has funded:

•   USAID provided approximately $2.3 million to various NGOs activities to assist war
    victims in Ethiopia. NGOs helped displaced children trace and rejoin family
    members and provided displaced children and orphans with academic and vocational
    training opportunities.

•   NGOs such as the African Centre for the Constructive Resolution of Disputes
    (ACCORD) have offered advisory services and training on conflict activities that
    complement intergovernmental efforts of organizations such as the OAU and the
    United Nations. In particular, ACCORD has conducted projects to promote national
    reconciliation in Liberia, Nigeria, Zimbabwe, and Tanzania. Africa Bureau records
    indicate that USAID provided more than $6.5 million to ACCORD for these services.

•   USAID provided $8 million to NGOs to assist the Democratic Republic of Congo
    (DROC) to transition from an authoritarian regime towards democratic government.
    The projects included activities in support of human rights, and a regional
    reconciliation conference bringing together parties to conflict for the first time.

•   Through contributions from USAID and other partners, the NGOs helped establish a
    resource center in Kinshasa, capital of the Democratic Republic of Congo. The
    center provides critical support to civil society organizations advocating for peace and
    democratic political transition. The resource center has been used for strategic
    planning and education workshops. Although renewed fighting in Kinshasa
    interrupted NGOs’ efforts at the center in 1998, the facility remained open—after the
    U.S. Embassy there was closed—in part, due to the flexibility of its NGO-status.

•   USAID sponsored a two-day workshop for a group of Nigerian NGOs that also
    included academic and private sector community representatives in Washington at a
    cost of $18,000. The primary purpose of the workshop was to support a transition to
    democracy and identify flash points to be avoided during the transition.




                                             13
        Support for African Demobilization and Retraining Effort

Excessive military spending in Africa represents a serious drain of resources; even more
troubling is the proliferation of highly armed paramilitary and armed opposition and
criminal organizations. ACRA specifically authorized the provision of assistance for the
purpose of demobilization and reintegration of ex-combatants into civilian society.
USAID projects for retraining of former combatants have been designed to aid efforts to
resolve conflicts and support national reconciliation. The following examples describe
the types of activities USAID funded to support demobilization and reintegration and
USAID identified results:

•    USAID funded crosscutting conflict activities in Angola through a Conflict
     Management and Reconciliation Activity in FY 1997.16 The activity consisted of
     four principle components that included (1) reintegrating ex-combatants; (2)
     strengthening of civil society to create a culture of respect for human rights; (3)
     facilitating transparent and accountable governance at all levels of the government;
     and (4) supporting constitutional reform. In 1998, through another activity, Africa
     Bureau officials report that approximately 177,000 soldiers, including more than
     1,000 child soldiers, were demobilized and reunited either with their dependants or
     families.

•    In Mali, USAID contributed $2 million to the Repatriation and Settlement of Ex-
     Combatants Program to disarm the rebel soldiers and finance income-generating
     activities. The program has financed 868 projects for about 10,000 former rebel
     soldiers and USAID believes the activity has been instrumental in strengthening the
     peace process.

•    In Uganda, USAID contributed about $6.6 million to assist demobilized soldiers to
     resettle and reintegrate socially, politically, and economically as acceptable members
     of their communities.

        Training for Africans in Conflict
        Resolution and Peacekeeping

Section 7 of the Africa Conflict Resolution Act authorized the President to establish a
program to provide education and training in conflict resolution and peacekeeping for
civilian and military personnel, using International and Military Education Training
(IMET) funding. USAID provided training for civilians only, in alternative dispute
resolution techniques under its normal statutory authorities. Training is one component
of USAID’s conflict-related activities. The following examples illustrate the types of
training USAID has funded primarily through NGOs, and the results USAID identified:

•    As a part of USAID’s Conflict Management and Reconciliation Activity in Angola,
     USAID funded training in political pluralism and tolerance was provided to 11
16
  Total funding for the activity is estimated at approximately $17 million. However, Africa Bureau
officials did not specify individual costs for each of the four components.

                                                   14
    political parties and more than 1,500 participants. In addition, the project provided
    professional training to journalist to support accurate reporting of news and
    information.

•   USAID funded programs in South Africa training almost 7,000 people in conflict
    resolution techniques, which contributed to a more peaceful political climate
    nationwide. In addition, USAID awarded a grant to a consortium of NGOs to help
    monitor and mediate election-related violence.

•   USAID funded training and support in alternative dispute resolution techniques for
    members of the Tanzanian judiciary. Africa Bureau officials indicate that there has
    been greater acceptance of these techniques by Tanzanians, as well as an interest in
    utilizing the techniques by neighboring countries following Tanzania's progress.

        Other USAID Activities
        Related to Conflicts in Africa

Additionally, USAID has funded activities that are indirectly related to conflict
prevention and resolution, including programs in humanitarian assistance, civic
education, access to quality news and information, disaster relief, and democratic election
support. For example:

•   In Kenya, USAID provided about $18,000 to support a symposium of members of
    Parliament from Northern Kenya. The project was designed to explore strategies for
    peace and development as well as to increase security awareness on the Kenyan and
    Ugandan borders.

•    One of the larger components of USAID’s program in Uganda focused on the
    recovery of victims of conflict. As a result of an assessment, $2 million was pledged
    to support abducted children and their families in Northern Uganda. Activities were
    aimed at helping children reunite with their families and communities, in the hope
    that they would eventually lead productive lives. This involved vocational training of
    older youth, education, and working with communities to accept these children.


OBSERVATIONS

We were unable to analyze the cost effectiveness of USAID’s conflict-related
investments for several reasons. USAID does not maintain easily retrievable financial
information about conflict activities, and USAID has not published annual progress
reports in a timely manner as called for by ACRA. Also, because many conflict-related
activities are imbedded in other international assistance activities, it is difficult to analyze
the cost effectiveness of investments in conflict-related activities. Furthermore, there is
no reliable way to measure the cost effectiveness of many activities because it is difficult,
if not impossible, to determine the extent to which a USAID-funded intervention may
have prevented conflict or contributed to the resolution of conflict.

                                               15
       Lack of Information
       About Conflict Activities

Managers may not always have readily available information about conflict-related
activities because USAID’s financial management system does not automatically track
those activities. The system does not track conflict activities because USAID has not
established a separate code to identify conflict activities. The system uses Emphasis Area
Codes and definitions to track how funds were used. However, the system does not
include a code to identify conflict activities. Because the system cannot identify a
comprehensive universe of the conflict activities being conducted, USAID managers may
not have reliable, up-to-date information about what activities have been funded, how
much has been expended, and what results have been achieved.

Africa Bureau officials told us they have begun a dialogue with other Agency officials to
consider expanding the emphasis area coding system to include a code for conflict
activities. This would assist Agency management in identifying conflict activities in a
more systematic manner. In June 1999, the Bureau released a standard definition for
'conflict' and conflict mitigation/management to be used to determine if an activity is
contributing to conflict prevention, mitigation, or resolution. The standard definition will
allow the Agency budget officials to add a code to the emphasis area definitions to
delineate conflict activity data.

       Recent Annual Progress
       Reports Have Not Been Timely

Although ACRA requires USAID to prepare and submit the annual progress reports to
Congressional committees, USAID has not done so since 1998. Consequently, summary
information describing progress is not readily available to oversight officials. The
progress reports are designed to provide a general summary of conflict activities.
According to Africa Bureau officials, the 1998 report has been drafted but not published
because of delays in receiving clearance from the different U.S. agencies involved in the
program. Additionally, Africa Bureau officials said that information from one fiscal year
is usually received from its field locations as a part of its R4 reporting process about six
months into a new fiscal year. Currently, the officials report that although the Africa
Bureau has drafted the 1999 report, the report was circulated for final clearance in June
2000. As a result, USAID has not published or released to the public, a recent summary
about efforts and progress made to prevent, mitigate, and resolve conflicts in Africa.




                                             16
       Conflict Activities are Embedded in
       Many International Assistance Efforts

USAID officials explained that efforts to reduce conflict, like efforts to reduce poverty,
permeates almost all USAID programs and are deeply embedded in almost all programs
as a crosscutting issue. A crosscutting issue is one that cuts across sector lines. USAID
normally identifies its activities and reports results by strategic objectives. Conflict-
related activities, however, can support multiple strategic objectives. For example,
conflict activities might be undertaken to support objectives of providing humanitarian
assistance, reintegrating communities successfully, or strengthening democracy and
governance.

USAID has also begun to focus more attention on ways to ensure that resources devoted
to international assistance are also used to help prevent conflicts. In particular,
responding to June 1999 guidance from the USAID Administrator, Africa Bureau
officials are incorporating more preventive strategies that address root causes of conflict
into its country specific and regional international assistance efforts. For example,
USAID requires all of its operating units to prepare vulnerability analyses that assess the
potential for conflict, summarize the assessment results, and indicate how the results
should affect approaches and to include the information in each country's strategic plans.
When clear potential for conflicts exist, the Bureau has directed each of its missions to
revise country strategic plans to focus on conflict prevention related activities. The
Africa Bureau has also begun to develop an analysis of vulnerabilities and to identify root
causes of conflicts that threaten broader U.S. interests.

However, there is no reliable way to measure the cost effectiveness of these activities
because it is difficult, if not impossible, to determine whether USAID-funded
interventions actually prevented a conflict.

        Investments are Small Relative to the Problem

USAID and other donor expenditures are also relatively small when compared to the
scope of the problems. According to a recent United Nations report:

       “Since 1970, more than 30 wars have been fought in Africa, the vast
       majority of them intra-State in origin. In 1996 alone, 14 of the 53
       countries of Africa were afflicted by armed conflicts, accounting for more
       than half of all war-related deaths worldwide and resulting in more than 8
       million refugees, returnees and displaced persons. The consequences of
       those conflicts have seriously undermined Africa's efforts to ensure long-
       term stability, prosperity and peace for its peoples.”




                                            17
In contrast, from 1995 to 1999, USAID’s Africa Bureau invested about $107 million to
prevent, mitigate, and resolve conflicts in Africa.17 This amounts to about $21 million a
year for the entire continent. As previously discussed, Africa has suffered from extensive
and deep-rooted conflicts for many years. In many cases, the conflicts are based on long-
standing religious or ethic divisions that are exacerbated by poverty, a lack of respect for
human rights, and weak and undemocratic governing structures. As a result, near-term
investments to strengthen African abilities to prevent, mitigate, and resolve conflicts
often suffer set-backs. These investments are expected to show results over the long-
term, rather than in the immediate future.

USAID’s summary of investments made to assist Mozambique illustrates progress in the
longer-term. According to a USAID summary, U.S. investments in Mozambique
contributed to resolving a protracted conflict. Mozambique was considered a failed state
in the 1980’s as a consequence of civil war and Marxist policies. More than 1.6 million
people had fled the country and nearly 4 million had been displaced. Between 1980 and
1992, per capita GNP had declined an average of 3.6 percent per year and per capita food
production had declined an average of 2.1 percent per year. However by FY 1994,
Mozambique gross domestic product rebounded to 5.4 percent and mozambique was the
fastest growing economy in the world from 1997 to 1999. According to USAID,
extensive investments by the U.S. and other donors during the 1990’s were aimed at
fostering peace and stability and rebuilding the economic infrastructure. The U.S.
provided leadership to forge a peace process that led to the signing of a peace accord in
1992. Focusing on rehabilitation and recovery, USAID supported demobilization of over
90,000 ex-combatants who were reintegrated into civilian life after being provided with
farm supplies and job training. USAID also funded the clearing of landmines,
rehabilitation of 2,000 kilometers of rural roads, and provision of seeds and tools to over
2.5 million people. USAID assistance also supported multiparty elections and economic
reforms. Although the situation is much improved, Mozambique remains listed as at
moderate risk of conflict. Mozambique also recently encountered severe flooding, and
will continue to require international assistance and humanitarian aid.




17
  This total does not include the Global Bureau’s Center for Democracy and Governance and the Bureau
for Humanitarian Response, Office of Transition Initiatives conflict-related activities which totaled about
$3.8 million for 1999 only.

                                                     18
